                             Statement of Melissa Heist
                       Assistant Inspector General for Audit
                             Office of Inspector General
                       U.S. Environmental Protection Agency
            Before the Committee on Transportation and Infrastructure
                           U.S. House of Representatives
                                    April 29, 2009



        Good afternoon Mr. Chairman and Members of the Committee. I am
Melissa Heist, Assistant Inspector General for Audit at the U.S. Environmental Protection
Agency (EPA) Office of Inspector General (OIG). I am pleased to be here today to
discuss some of the challenges facing EPA in implementing the American Recovery and
Reinvestment Act of 2009 (Recovery Act) and the OIG’s plans to oversee EPA Recovery
Act activities. The Recovery Act provided funding for a wide range of Federal programs
intended to create jobs, stimulate economic recovery as quickly as possible, and invest in
infrastructure. It also created a vital oversight role for Inspectors General within those
agencies or departments that received Recovery Act funds to ensure that those funds are
properly expended. The OIG has developed, and started to implement, an initial
oversight plan designed to identify and prevent fraud, waste, abuse, or mismanagement of
funds.

                EPA Recovery Act Funding and Oversight Activities

       The Recovery Act provided EPA with $7.2 billion, roughly equal to its fiscal year
(FY) 2009 appropriation, for the following six existing EPA programs:

       •   $4 billion for the Clean Water State Revolving Fund (CWSRF) to provide
           funds for upgrading wastewater treatment systems.
       •   $2 billion for the Drinking Water State Revolving Fund (DWSRF) to provide
           funds for drinking water infrastructure.
       •   $600 million to the Hazardous Substance Superfund for site cleanup.
       •   $300 million to the Diesel Emissions Reduction Act Program for projects that
           reduce diesel emissions.
       •   $200 million to the Leaking Underground Storage Tank Trust Fund Program
           for cleanup activities of underground storage tank petroleum leaks.
       •   $100 million to the Brownfields Program for grants to carry out revitalization
           projects.

Funds for these programs are available for obligation through September 2010. About
$90.5 million of this amount is specifically dedicated to management and oversight by
EPA and is available through September 2011. The OIG received $20 million for
oversight of EPA Recovery Act activities that are available through September 2012.
      EPA has begun to disperse some of its Recovery Act funds. As of April 17, 2009,
EPA had awarded 66 grants worth nearly $1.5 billion broken out as follows:

       •   12 CWSRF grants totaling nearly $1.1 billion;
       •   10 DWSRF grants totaling over $321 million; and
       •   44 diesel emissions reduction grants totaling over $76 million.

EPA has also awarded one Superfund contract worth $20.55 million. EPA recently
published a list of Superfund sites that will soon receive additional Recovery Act funds.

       The Recovery Act contains specific provisions that EPA is required to meet
regarding the use of its funds. These provisions include separately tracking the funds in
the Agency’s accounting system; the waiving of cost share and matching requirements;
preference for quick-start activities; tribal set-asides for Indian Health Service; and
appropriations for tribal grants. The Act also outlines specific reporting and
accountability requirements for the use of Recovery Act funds.

        EPA leadership is showing a strong commitment to ensuring Recovery Act funds
are used for their intended purposes and to meeting the objectives of the Act. Early on
they sought our advice on management and oversight issues. EPA has established several
internal committees. These internal committees meet regularly to discuss Agency
progress in meeting Recovery Act objectives. The OIG has been participating in an
advisory role on all of these key committees. EPA is developing a stewardship plan to
reinforce internal controls over the funds. This plan will address OMB’s requirement for
agencies to have risk mitigation strategies for Recovery Act funding. For the State
Revolving Fund (SRF) programs, EPA issued guidance for awarding Recovery Act
funding in March 2009. This guidance informed States of their application
responsibilities and discussed the unique provisions in the Recovery Act. Under these
programs, all 50 States and Puerto Rico maintain revolving loan funds that provide
sources of low-cost financing for a wide range of water quality infrastructure projects.
The amount of funds available to each State is based on established formulas.

                        Challenges Posed by the Recovery Act

       EPA will face significant new financial and programmatic challenges as it awards
and oversees Recovery Act funding. The Act provided additional funding for existing
EPA programs, new requirements for award and implementation, and placed an emphasis
on spending the funds quickly to help stimulate economic revitalization. EPA must meet
its Recovery Act requirements while at the same time carrying out its ongoing
environmental programs. Therefore, the OIG will be designating EPA management of
stimulus funds as a new top management challenge for FY 2009.

        The SRF programs are the largest share of EPA Recovery Act funding, totaling $6
billion of the $7.2 billion appropriated. The Congressional Budget Office has noted that
historically, appropriations for the SRF programs are spent slowly with about half the
funds spent over the first three years. Prior OIG work on EPA Border Programs, which


                                            2
focus on developing infrastructure to treat wastewater and deliver safe drinking water
along the U.S.-Mexico border, have shown similar problems. Since our audits the
Agency has taken some corrective actions, but at the time of our work, these programs
had unliquidated balances totaling over $300 million that had accumulated over a 10-year
period. By not deobligating these funds, EPA delayed much needed water
improvements. EPA and its grantees will be challenged to spend the SRF Recovery Act
funding in a timely manner, as required by the Act.

        Most Recovery Act funds will be awarded through assistance agreements or
contracts. EPA assistance agreements and contracts personnel will have to manage the
stimulus-funded projects in addition to their normal workloads. Although EPA may set
aside anywhere from 1 to 3.5 percent of Recovery Act funds for management and
oversight purposes, EPA will be challenged to have sufficient, trained staff to award and
monitor assistance agreements and contracts. If EPA does not assign sufficient staff to
oversight, the Agency increases the risk of fraud, waste, and abuse of Federal funds. It
will also increase the risk that EPA will award funds to entities that do not have adequate
administrative and programmatic capabilities to efficiently and effectively carry out the
work. EPA will also need to focus considerable attention on ensuring that Recovery Act
funds produce their desired results and minimizing cost overruns and project delays.

        The grants EPA awards with Recovery Act funding will contain new conditions
that require additional monitoring and oversight. The Act states that grant funds should
be awarded to recipients that will maximize job creation and economic benefits. The Act
also requires each State to use at least 50 percent of the CWSRF and DWSRF loan
amounts for forgiveness of principal, negative interest loans, or grants. The Act
stipulates that to the extent that there are sufficient eligible projects, at least 20 percent of
the SRF allotments are to fund projects to address green infrastructure, water or energy
efficiency improvements, or other environmentally innovative activities. EPA also will
need to more closely monitor Recovery Act funds because, unlike current programs,
Recovery Act-funded grants do not require a match by the recipient and there are
provisions for loan forgiveness, so not all funds will have to be repaid. These provisions
increase the risk of fraud, waste, and abuse.

        For most of the Recovery Act funding, EPA will rely heavily on State agencies as
the primary fund recipients to properly manage their sub-recipients. For the SRFs, EPA
provides funding to States that in turn award funding to a local government entity. The
local government then awards contracts for water infrastructure construction. Given the
significant economic problems many States face, they may not have the resources to
properly oversee these funds. In addition, EPA may not have the information needed to
identify fraud, waste, and abuse at the level where a majority of funds are expended.
Currently, the Office of Management and Budget (OMB) is only requiring States to
report information down to the sub-recipient level. If OMB does not develop a means
and a requirement to collect data below the sub-recipient level, EPA will not have the
information to identify potential fraud, waste, and abuse at the level where it is most
likely to occur.




                                                3
         For the Superfund program, activities under the Recovery Act will generally be
funded through contracts. With the emphasis on awarding funds and getting work started
quickly, there is a risk that the contractors will not be ready and able to accept the
additional work. This may result in greater reliance on subcontractors overseen by a
contractor challenged to handle the additional work. While EPA plans on using existing
contracts to obligate most of the Recovery Act funds, the additional funds may result in
the contracts reaching cost ceilings earlier than expected and needing to be re-competed
earlier than planned. These additional activities will strain the current acquisition
workforce.

        Remedial Action Contracts are a primary acquisition vehicle that the EPA
Superfund program uses to conduct long-term clean-up and remediation support
activities. A 2008 OIG report identified risks in managing such contracts. The process
for determining contractor award fee amounts and whether they would be granted was
burdensome. The complex contract award fee process resulted in excessive award fees to
the contractor, and EPA viewed the award fees as more of an expectation for contractors
rather than a factor to motivate excellence.

                  OIG Oversight Plan of EPA Recovery Act Funds

       In March 2009, the OIG released its initial oversight plan of Recovery Act funds.
Under our plan, the OIG will assess whether EPA is using its funds in accordance with
applicable requirements and is meeting the accountability objectives defined by OMB.
The objectives include whether:

       •   Funds are awarded and distributed in a prompt, fair, and reasonable manner.
       •   The recipients and uses of all funds are transparent to the public, and the
           public benefits of these funds are reported clearly, accurately, and in a timely
           manner.
       •   Funds are used for authorized purposes and instances of fraud, waste, error,
           and abuse are mitigated.
       •   Projects funded under this Act avoid unnecessary delays and cost overruns.
       •   Program goals are achieved, including specific program outcomes and
           improved results on broader economic indicators.

        As EPA awards Recovery Act funds, the OIG is taking a number of actions to
alert Agency managers of risks and cost effective controls to help prevent fraud, waste,
and abuse; and ensure program goals are achieved and stimulus funds are accurately
tracked and reported. As our auditors and evaluators identify risks, they will provide
flash reports to Agency managers with recommendations for ways to mitigate these risks.
We have been meeting with EPA managers to increase our understanding of how
stimulus funds will be used and to provide technical assistance based on past experience
in auditing and investigating EPA programs. We are also reviewing prior audits in
program areas covered by the Recovery Act to determine whether corrective actions have
been completed. Finally, after EPA awards stimulus funds, we will review EPA



                                             4
management of Recovery Act programs, how funds are being used, and the accuracy of
the information being reported.

        From an investigative perspective, we will undertake a proactive approach to
prevent fraud, waste, and abuse of funds by educating EPA and State employees,
contractors, and grant recipients on identifying fraud indicators and reporting suspicious
activities and conditions to the OIG. This includes the development and distribution of
brochures, pamphlets, and other training materials. Plans are also currently underway for
our investigators, in conjunction with the EPA Office of Water, to conduct fraud
prevention training via webcast to States and other stakeholders. We will conduct
outreach with law enforcement at the Federal, State, and local levels in an effort to gather
information on potential fraudulent activity involving EPA funds. This outreach will also
include contacting the top SRF recipients to facilitate ongoing communications regarding
funds distributed to local authorities. We will use various investigative tools and
techniques such as data mining, forensic auditing, and the development of fraud
investigative teams to further detect fraudulent activity. These teams — composed of
OIG investigators, auditors, and evaluators — will analyze fraud indicators among the
top State recipients of funds to determine those that are at high risk for fraudulent
activity. Finally, we will review, as appropriate, concerns raised by the public about
specific allegations of fraud, waste, or abuse of Recovery Act funds received via our OIG
Hotline.

        The following are some of the specific areas the OIG plans to audit and
investigate.

Performance Audits

       •   Evaluate the process for awarding funds, particularly competitive awards.
       •   Evaluate the process States will use to award Recovery Act SRF funds.
       •   Determine whether funds are being awarded and spent timely.
       •   Determine whether the Agency has sufficient staff with the skills and
           knowledge needed to manage the grants and contracts awarded with Recovery
           Act funds.
       •   Evaluate how the Agency is monitoring the use of the funds.
       •   Assess how performance is being measured and the process used for
           computing jobs saved and created.
       •   Review the quality of data systems and information EPA uses for reporting
           Recovery Act’s requirements.

Financial Audits

       •   Conduct interim and final financial audits of Recovery Act fund recipients to
           determine whether:
               o costs incurred met federal requirements;
               o funds were used as intended; and
               o funds were free of fraud, waste, abuse, and mismanagement.


                                             5
       •   Work with EPA to update the Single Audit Compliance Supplements for the
           Clean Water and Drinking Water State Revolving Funds.
       •   Review Single Audit reports on Recovery Act funds and ensure that corrective
           action is taken.
       •   As part of the annual audit of EPA’s overall consolidated financial statements:
               o assess internal controls over the financial reporting of Recovery Act
                   funds;
               o examine transactions to determine whether they are properly
                   authorized, recorded, and reported; and
               o examine compliance with Recovery Act provisions that could have a
                   material or direct effect on the financial statements.

Investigations

       •   Investigate allegations raised by the public and others of fraud, waste, and
           abuse committed against EPA involving Recovery Act funds.
       •   Contact State recipients to facilitate ongoing communications regarding EPA
           Recovery Act funds distributed to local authorities.
       •   Through the review of EPA and State audits and evaluations, identify fraud
           indicators, program weaknesses, and potential problems.
       •   Outreach and educate recipients of Recovery Act funds on potential fraud
           indicators.
       •   Gather information on potential instances of fraud being perpetrated with EPA
           Recovery Act funds from law enforcement officials, auditors, contractors,
           suppliers, and vendors at the federal, State, and local levels.

        Currently, we have 12 staff working on Recovery Act activities. Our plan is to
increase our staffing to have between 35-45 staff assigned to this work. The number will
fluctuate based on the time it takes to recruit staff and the amount of funds that have been
awarded and spent.

        Reports on our findings not related to ongoing criminal investigations will be
posted on our “EPA OIG Recovery Act Efforts” page of our Website when published.
Our work is being closely coordinated with the Recovery Accountability and
Transparency Board, as well as other audit and law enforcement organizations at the
Federal, State, and local levels. This includes the Council of Inspectors General on
Integrity and Efficiency, which represents the Federal Inspector General community.
Specifically, the Council’s Recovery Funds Workgroup serves as a point of
communication and coordination on Recovery Act matters that affect the Board and other
OIGs.

                          Completed OIG Recovery Act Work

        The OIG has started to issue reports on our Recovery Act oversight activities.
Earlier this month, we issued a report that reviewed open recommendations from prior
OIG audit reports that could impact EPA Recovery Act activities. Open


                                             6
recommendations are those for which EPA has not completed corrective actions. We
identified five open recommendations from three audit reports that pertain to grants,
contracts, and interagency agreements. In response to a 2008 report, EPA agreed to
implement our recommendation to distribute revised terms and conditions to regions in
June 2009 for spending brownfields grant funds more timely. EPA told us these terms
and conditions would be in place before EPA awarded any Recovery Act grants. A 2008
report found that EPA had no assurance that use of Cost-Plus-Award-Fee contracts
facilitated a higher level of performance than other types of contracts, and contractors
were given award fees without sufficient support. To address these issues, the EPA
Office of Acquisition Management completed revisions to the Contracts Management
Manual and will have the information published by late April. We also noted EPA
Region 5 paid award fees in excess of limits, and corrective action is still pending. A
2007 report found that EPA often entered into interagency contracts without conducting
cost reasonableness assessments or identifying alternatives, such as whether EPA in-
house staff should acquire the services or products. EPA is not planning to conduct its
comprehensive review of interagency contracts to verify implementation of the corrective
action until September 2010. EPA needs to ensure other corrective actions related to cost
reasonableness assessments and considerations of alternatives to interagency contracts
are implemented for Recovery Act interagency contracts. We recommended that the
Agency expedite corrective actions for the open recommendations as they pertain to
Recovery Act funds. EPA is required to respond to our report in May 2009 describing
how it has addressed, or plans to address, these recommendations.

        In March, the OIG reviewed OMB’s updated guidance for the Recovery Act and
provided several comments for OMB’s consideration in a special report. Overall, we
found that the guidance is prescriptive for agencies to make funding available in a
transparent, need-driven way on an agency-by-agency basis. However, there does not
appear to be a process described for cross-agency coordination of grantee and other fund
recipient review to ensure that recipients are not obtaining funds from multiple sources
for the same project. We also believe cross-agency checks should be required, beyond
the current process, to ensure that a grantee, contractor, or recipient does not have
outstanding Federal obligations and has performed satisfactorily in the past. Further,
because States will be primary recipients of Recovery Act funds, we think more clarity is
needed regarding what obligations State auditors have to review and report on the
propriety of, accounting for, and use of the Recovery Act funds, as well as the recipient’s
accuracy in the reporting of results.

       In addition, we made comments on specific sections of the guidance. These
involved such issues as seeking more information on subprime contractors, identifying
expected savings, assessing risk associated with any decision for providing funds to each
grantee, and having a third party arbitrating disputes between the Agency contract officer
and the auditor.

       Additional Recovery Act reports will be issued in the weeks and months to come
as our work is completed. For example, we are currently reviewing open
recommendations from prior OIG financial reports on assistance agreement and contract



                                             7
recipients. We have an audit ongoing that is assessing EPA’s use of contractors’ past
performance evaluations and responsibility determinations in awarding Recovery Act
funds. We have also initiated work on an evaluation to assess some concerns expressed
by public interest groups about the portion of funding set aside for green infrastructure,
water or energy efficiency, and environmentally innovative projects under the Recovery
Act.

                                       Conclusion

        The purpose of the Recovery Act as it applies to EPA is to preserve and create
jobs, promote economic recovery, and invest in environmental protection and other
infrastructure that will provide long-term economic benefits. EPA must manage
Recovery Act funds to achieve these purposes while commencing expenditures and
activities as quickly as possible, consistent with prudent management. The OIG’s role is
to assess whether EPA is meeting its responsibilities and to hold EPA accountable for the
funds it expends. While we have developed a plan to oversee EPA Recovery Act
activities, we anticipate that our plans and activities will evolve. We will revise and
update our oversight plans as necessary to ensure that fraud, waste, abuse, and
mismanagement is identified and addressed.

       Thank you for the opportunity to testify before you today. I would be pleased to
answer any questions the Committee may have.




                                             8
